Report No. D-2010-077           August 23, 2010




    Air Force Military Personnel Entitlement
   Pay in Support of Contingency Operations
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing
at (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFB                           Air Force Base
AFFSC                         Air Force Financial Service Center
DFAS                          Defense Finance and Accounting Service
DJMS                          Defense Joint Military Pay System
DOD FMR                       Financial Management Regulation
EIM                           Enterprise Information Management
FMFIA                         Federal Manager’s Financial Integrity Act
FSA                           Family Separation Allowance
FSO                           Financial Services Office
HDP                           Hardship Duty Pay
HFP                           Hostile Fire Pay
IDP                           Imminent Danger Pay
MIC                           Manager’s Internal Control
OMB                           Office of Management and Budget
RAD                           Remote Access Drive
                                  INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DR IVE 

                              ARLINGTON , VIRG INIA 22202-4704 


                                                                               August 23, 2010

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
              ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
              DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Air Force Military Personnel Entitlement Pay in Support of Contingency
         Operations (Report No. D-2010-077)

We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. We request
the Assistant Secretary of the Air Force (Financial Management and Comptroller) provide
comments on Recommendations 1 and 2 by September 23, 2010.

Ifpossible, please send a .pdffile containing your comments to auddbo@,dod ig.mil. Copies
of management comments must contain the actual signature of the authorizing official for
yo ur organization. We cannot accept the ISignedl symbol in place of the actual signature. If
you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).



                                   t0J;0~~~          a. /lJ ~
                                  Patricia A. Marsh, CPA 

                                Assistant Inspector General 

                                Defense Business Operations 

Report No. D-2010-077 (Project No. D2008-D000FP-0252.000)                          August 23, 2010

               Results in Brief: Air Force Military Personnel
               Entitlement Pay in Support of Contingency
               Operations

0B What We Did                                         Examination Program to ensure documents were
                                                       available to support contingency operation
Our objective was to determine whether
                                                       entitlement payments. As a result, AFFSC
Air Force military personnel entitlement pay
                                                       made improper payments. In addition, the lack
disbursed in support of contingency operations
                                                       of supporting documentation limited the Air
was paid in accordance with established laws
                                                       Force’s ability to detect overpayments and
and regulations. Specifically, we determined
                                                       underpayments, stop payments timely, and
whether entitlement pay disbursed for Air Force
                                                       discover improper payments and fraud.
military personnel on active duty status and
processed at the Air Force Financial Service           2BWhat We Recommend
Center (AFFSC) was paid accurately and                 We recommend that the Assistant Secretary of
timely.                                                the Air Force (Financial Management and
                                                       Comptroller) require the Director of AFFSC to:
BW
 1 hat We Found
AFFSC did not always have complete                        establish a MIC program at AFFSC;
documentation to support amounts paid for Air             develop an adequate Quality Control
Force military personnel entitlement pay in                Examination Program;
support of contingency operations. Specifically,          obtain all required documentation for the
the AFFSC could not adequately support                     contingency operation entitlement
contingency operation entitlements for 34 of the           payments;
70 Air Force military personnel reviewed. The             make payments to Air Force military
34 Air Force military personnel entitlements               personnel for the amounts underpaid; and
account for $57,595 of the $161,278                       collect overpayments from Air Force
contingency operation entitlement payments                 military personnel for the amounts overpaid.
reviewed.
                                                       Management Comments and
AFFSC also did not stop payments timely and
did not always pay Air Force military personnel        Our Response
accurately. Continuing the contingency                 The Commander, AFFSC, responding for the
operation entitlement pay resulted in collection       Assistant Secretary of the Air Force (Financial
actions to correct erroneous payments for 8 of         Management and Comptroller), agreed with all
the 70 Air Force military personnel reviewed.          recommendations. The comments to
                                                       recommendations 3, 4, and 5 were responsive.
In addition, AFFSC underpaid 25 of the 70 Air          The comments to recommendations 1 and 2
Force military personnel reviewed and overpaid         were partially responsive. We request that Air
5 of the 70 Air Force military personnel               Force reconsider its position and provide
reviewed by nominal amounts.                           additional comments by September 23, 2010.
                                                       Please see the recommendations table on the
These conditions occurred because the AFFSC            back of this page.
did not establish a Manager’s Internal Control
(MIC) program and an adequate Quality Control

                                                   i
     Report No. D-2010-077 (Project No. D2008-D000FP-0252.000)            August 23, 2010

Recommendations Table
4B




               Management             Recommendations            No Additional Comments
                                      Requiring Comments         Required
     Assistant Secretary of the Air   1 and 2                    3, 4, and 5
     Force (Financial Management
     and Comptroller)


     Please provide comments by September 23, 2010.




                                               ii
Table of Contents

Introduction                                                      1


      Objective                                                   1

      Background                                                  1

      Review of Internal Controls                                 3


Finding. Internal Controls Over Air Force Military Personnel 

Entitlement Pay in Support of Contingency Operations              4


      Management Comments on the Finding and Our Response        10 

      Recommendations, Management Comments, and Our Response     11 


Appendices

      A. Scope and Methodology                                   14 

      B. Military Pay Policy                                     16 


Management Comments

      Air Force Financial Services Center                        18


Introduction
Objective
5B




Our objective was to determine whether Air Force military personnel entitlement pay
disbursed in support of contingency operations was paid in accordance with established
laws and regulations. Specifically, we determined whether entitlement pay disbursed for
Air Force military personnel on active duty status and processed at the Air Force
Financial Service Center (AFFSC) was paid accurately and timely. See Appendix A for a
discussion of the scope and methodology and for prior coverage related to the objectives.

Background
6B




The Air Force provides a significant part of the air support and air transportation for units
in Operation Enduring Freedom in Afghanistan and Operation Iraqi Freedom in Iraq.
The Air Force employs more than 335,000 active duty personnel including officers and
enlisted members.

Defense Joint Military Pay System
The Air Force processes military pay through the Defense Joint Military Pay System
(DJMS), which is controlled and maintained by Defense Finance and Accounting Service
(DFAS). 1 DJMS supports military pay and contingency operation entitlement pay for
             FPFP   PFPF




Air Force military personnel. According to DFAS representatives, the total contingency
operation entitlement pay for Air Force military personnel for FY 2008 was $197 million.
Specifically, the Air Force spent approximately $31 million for Hardship Duty Pay
(HDP), $87 million for Hostile Fire Pay/Imminent Danger Pay (HFP/IDP), and
$79 million for Family Separation Allowance (FSA). The AFFSC and Financial Services
Offices (FSOs) at Air Force bases (AFBs) update pay data in DJMS.

Air Force Financial Management Transformation
Program Office
According to the Air Force Audit Agency, the Air Force Financial Management
Transformation program office managed the initial effort to centralize travel and military
pay processing. The program office formed a Financial Service Transformation team
responsible for developing and executing an implementation plan. The plan established a
central processing center at AFFSC; the plan included transferring workload from
93 AFB-level FSOs to AFFSC. In June 2008, the Deputy Assistant Secretary for
Financial Operation assumed responsibility for managing the overall transformation
effort.



1
PAs of May 2010, DFAS Denver was in the process of closing, and the DJMS System Management and
     P




Software Development functions will be transferred to DFAS Indianapolis. DJMS will continue to be
hosted at the Defense Information Systems Agency Processing Center, Mechanicsburg, Pennsylvania.
         P




                                               1


Air Force Financial Service Center
AFFSC is a Field Operating Agency of the U.S. Air Force. AFFSC is located at
Ellsworth Air Force Base near Rapid City, South Dakota. Its mission is to centrally
process all military pay and travel pay transactions for active duty Air Force military
personnel and civilian employees, and answer financial service questions from Air Force
FSOs. The AFFSC commander reports to the Deputy Assistant Secretary of the
Air Force for Financial Operations. The Air Force established AFFSC in
September 2007. The Air Force is in the process of transferring travel and military pay
processing from 93 active duty base-level FSOs to AFFSC.

Financial Services Office
FSOs are responsible for reviewing entitlement pay documents of military personnel for
accuracy and proper supporting documentation. Specifically, FSOs must research and
audit an Air Force member’s master military pay account before encoding the data into
DJMS. FSOs must encode and certify, when applicable, all military pay documents.
FSOs must ensure they properly identify military pay documents when creating
Enterprise Information Management (EIM) bar-code scan sheets with the appropriate
customer type. FSOs then scan all documents into the EIM system and submit the
information to the AFFSC Central Processing Center. The EIM is an electronic
document management system that automatically routes documents to the correct AFFSC
processing team in accordance with the FSO-prepared bar-code scan sheet. FSOs are
required to submit applicable back-up documentation if the military pay document was
not certified at the FSO. Each FSO must maintain copies of all scanned documents for
90 days. EIM is the official system of record, which will store all documents for the
required 6 years and 3 months. FSOs are no longer required to maintain long-term paper
copies of documents once they are submitted to AFFSC.

When EIM initially failed in November 2007, the AFFSC Information Technology team
developed the Remote Access Drive (RAD). RAD is a file transfer system; it is not a
document management system. RAD consists of a series of electronic folders for
transferring files from AFB-level FSOs to the AFFSC for processing and payment.
At initial implementation, each FSO had access to nine different electronic folders on an
AFFSC drive. The folders corresponded to the different payment processing types.
These files were then manually transferred to another drive for AFFSC team lead access.
AFFSC team leads subsequently transferred files to individual technicians for processing.
Because of the need to move electronic documents manually by computer and the
number of personnel with access, RAD’s limitations included the possibility of
misplacing document files, losing document files, and accidently deleting document files.
Additionally, FSOs had no visibility of their submitted documents.

RAD was not used when EIM operations were restored in February 2008. However,
RAD was deployed again with enhanced automated features when EIM failed in
May 2009, but it remains a files transfer system. The enhanced features included
reducing the folders on the AFFSC drive from nine to two and a scripted move of
documents from one AFFSC drive to another to eliminate manual movement.

                                          2


     In addition, the RAD keeps copies of documents for 30 days to allow recovery of
     misplaced, lost, or deleted documents, and keeps a document log to allow FSOs to ensure
     documents were received by AFFSC. Additionally, FSOs are required to retain their
     document records long term, either electronically scanned documents or paper
     documents, for 6 years and 3 months. RAD will continue to be the back-up contingency
     system to support AFFSC operations after EIM operations are restored and stabilized.

Review of Internal Controls
7B




DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for AFFSC as defined by DOD Instruction 5010.40. AFFSC did not have
complete documentation to support amounts paid for Air Force military personnel
entitlement pay in support of contingency operations. In addition, AFFSC did not stop
contingency operation entitlement payments timely and did not always accurately pay
Air Force military personnel.

Recommendations 1 through 5, if implemented, will establish a MIC program and an
adequate Quality Control Examination Program to ensure proper documentation is
available for review; help to prevent overpayments and underpayments; initiate payment
actions for underpayments; and initiate collection actions for overpayments. We will
provide a copy of the report to the senior official(s) responsible for internal controls.




                                              3


Finding. Internal Controls Over Air Force
Military Personnel Entitlement Pay in
Support of Contingency Operations
AFFSC did not always have complete documentation to support amounts paid for
Air Force military personnel entitlement pay in support of contingency operations.
Specifically, the AFFSC could not adequately support contingency operation entitlements
for 34 of the 70 Air Force military personnel reviewed. The 34 Air Force military
personnel entitlements account for $57,595 of the $161,278 contingency operation
entitlement payments reviewed. AFFSC also did not stop payments timely and did not
always pay Air Force military personnel accurately. Continuing the contingency
operation entitlement pay resulted in collection actions of $8,915 to correct erroneous
payments for 8 of the 70 Air Force military personnel reviewed. In addition, AFFSC
underpaid 25 of the 70 Air Force military personnel reviewed and overpaid 5 of the 70
Air Force military personnel reviewed by nominal amounts.2 These conditions occurred
                                                                     P




because the AFFSC did not establish:

            a MIC program and
            an adequate Quality Control Examination Program to ensure documents were
             available to support contingency operation entitlement payments.

As a result, AFFSC made improper payments. In addition, the lack of supporting
documentation limited the Air Force’s ability to detect overpayments and underpayments,
stop payments timely, and discover improper payments and fraud.

Criteria
8B




The DOD Regulation 7000.14-R, “DOD Financial Management Regulation” (DOD
FMR), volume 7A, “Military Pay Policy and Procedures-Active Duty and Reserve Pay,”
provides guidance for calculating HDP, HFP/IDP, and FSA contingency operation
entitlement pay. See Appendix B for the DOD FMR definitions of these contingency
operation entitlements and how they are calculated. DOD FMR volume 5, chapter 21,
“Disbursing Office Records,” provides guidance on the retention of supporting
documentation. DOD FMR, volume 4, chapter 14, “Improper Payments,” defines and
provides guidance on improper payments.

     The Assistant Secretary of the Air Force (Financial Management and Comptroller) is
     primarily responsible for issuing Air Force Manual 65-116, “Defense Joint Military Pay

2
P Of the 70 Air Force military personnel reviewed, only 13 Air Force military personnel had their
     P




entitlement payments properly supported and paid. The remaining 57 Air Force military personnel had one
or more entitlement payment problems. For example, one Air Force military member had entitlements
payments that were not adequately supported and had collection actions against him.




                                                4


System Active Component (DJMS-AC) FSO Procedures,” volume 1, April 1, 2007, that
provides AFB-level military pay policy and procedures for the FSOs.

Supporting Documentation for Contingency Operations
9B




Entitlements
AFFSC did not always have complete documentation to support amounts paid for
Air Force military personnel entitlement pay in support of contingency operations.
Without the appropriate supporting documentation, the Air Force should not authorize a
contingency operation entitlement payment. The following paragraphs provide an overall
summary on supporting documentation and individual summaries by contingency
operation entitlements.

Summary on Supporting Documentation
AFFSC could not adequately support contingency operation entitlements for 34 of the
70 Air Force military personnel reviewed. The 34 Air Force military personnel
entitlements account for $57,595 of the $161,278 contingency operation entitlement
payments reviewed. Specifically, AFFSC did not maintain supporting documentation for
contingency operation entitlements according to DOD FMR, volume 5, chapter 21,
requires that when certifying officials send electronic payment files to a disbursing office,
they must keep supporting documentation for 6 years and 3 months. However, the
AFFSC did not always have supporting documentation including travel orders, travel
vouchers, and DD Forms 1561, “Statement to Substantiate Payment of Family Separation
Allowance.” If a copy of the travel voucher was not available, AFFSC did not have
evidence that the Air Force military personnel actually completed the trip and it did not
have evidence of the actual dates of the trip.

Table 1 shows, by type of contingency operation entitlement, the number and dollar
amounts of the 34 Air Force military personnel entitlements that were not supported or
only partially supported. The 34 Air Force military personnel reviewed had 57
contingency operation entitlement payments totaling $57,595 that were not supported or
partially supported because some Air Force military personnel had more than one
contingency operation entitlement not supported or partially supported. For example, if
an Air Force military member received HDP and HFP/IDP entitlement payments and a
travel voucher was not furnished, neither the HDP nor the HFP/IDP entitlement payments
was supported.




                                           5


       Table 1. Entitlements Not Supported and Partially Supported
               Not Supported       Partially Supported          Totals
             Number      Amount       Number       Amount      Number       Amount
HDP            11          $4,362        5           $1,730      16           $6,092
HFP/IDP        12         $13,500        5           $8,325      17          $21,825
FSA            21         $25,903       3            $3,775      24          $29,678
Totals         44         $43,765       13          $13,830      57          $57,595

Hardship Duty Pay
Of the 70 Air Force military personnel reviewed, AFFSC made HDP payments totaling
$4,362 to 11 Air Force military personnel without supporting documentation and
payments totaling $1,730 to 5 Air Force military personnel with partial supporting
documentation. Air Force Manual 65-116, volume 1, requires travel documents to show
that Air Force military personnel traveled to qualified areas to authorize HDP.
Specifically, Air Force Manual 65-116 states that Air Force personnel are required to
submit their travel orders and travel vouchers to support assignment, authorization, and
actual dates of deployment to a hardship duty location. An Air Force member’s HDP
was not supported when the file lacked both the travel orders and travel voucher
necessary to support the propriety of the HDP entitlement payment. We determined HDP
entitlement payments were partially supported when the file contained the travel voucher
but not the travel orders.

Hostile Fire Pay/Imminent Danger Pay
Of the 70 Air Force military personnel reviewed, AFFSC made HFP/IDP payments
totaling $13,500 to 12 Air Force military personnel without supporting documentation
and payments totaling $8,325 to 5 Air Force military personnel with partial supporting
documentation. Air Force Manual 65-116, states that proof of eligibility for IDP can be
an approved travel voucher for travel to a designated IDP area. Air Force Manual 65-116
requires the Air Force to use Air Force Form 1881, “Hostile Fire Pay Certification,” to
document and authorize HFP entitlement pay. When Air Force Form 1881 is not
available, DD Form 114, “Military Pay Order,” may be substituted if it includes all
pertinent information contained on Air Force Form 1881. Air Force Manual 65-116
states that Air Force military personnel are required to submit their travel orders and
travel vouchers to support duty location in a designated HFP/IDP area and for
determining the inclusive period that the member was entitled to HFP/IDP. An Air Force
member’s HFP/IDP was not supported when the file lacked the required forms, the travel
order, and travel voucher. These documents are necessary to support the propriety of the
HFP/IDP entitlement payment. We determined HFP/IDP entitlement payments were
partially supported when the file contained the travel voucher but not the travel orders.




                                          6


Family Separation Allowance
Of the 70 Air Force military personnel reviewed, AFFSC made FSA payments totaling
$25,903 to 21 Air Force military personnel without supporting documentation and
payments totaling $3,775 to 3 Air Force military personnel with partially supporting
documentation. Air Force Manual 65-116 requires Air Force military personnel to use
DD Form 1561 to document and authorize FSA payments. If a copy of DD Form 1561
was not available, AFFSC did not have evidence that an Air Force member qualified to
receive FSA payments. Support for a FSA payment also required DD Form 114, travel
order, and travel voucher. Without these documents, an Air Force member had no
supporting documentation to support FSA payment. An Air Force member’s FSA was
not supported when the file lacked the required forms, the travel order, and travel
voucher. These documents were necessary to provide validation of the FSA entitlement
payment. We determined FSA entitlement payments were partially supported when the
file contained the DD Form 1561 and travel voucher but not the travel orders and
DD Form 114.

Stopping Payments and Accurate Payments
10B




The AFFSC did not promptly stop contingency operation entitlement pay, which resulted
in collection actions to correct erroneous payments totaling $8,915 to 8 of the 70 Air
Force military personnel reviewed. For these eight military personnel, AFFSC personnel
took from 61 to 249 days to make appropriate pay changes to a member’s master military
pay account. Table 2 shows the number of days contingency operation entitlement pay
continued after the entitlement end date and the amount of pay collected.

                            Table 2. Elapsed Days and Pay Collected
              Elapsed Days1 After Entitlement
                                                    Amount of Pay Collected
                             P   P




                        End Date 

                            61                              $1,463
                            62                                1,653
                            67                                  450
                            75                                  450
                            88                                 7332              P




                           102                                  675
                           200                                1,466
                           249                                2,025       U




                                                            $8,915        U




      1
      P Elapsed days equals the number of days between the entitlement ending date and the date
          P




      the collection was processed in DJMS.
      2
      P       Only $233 of the $733 was collected; the Air Force member still owes $500.
              P




                                                      7


     The AFFSC did not always make accurate payments of contingency operation
     entitlement pay to Air Force military personnel. The AFFSC inaccurately paid 30 of
     the 70 Air Force military personnel reviewed. Specifically, AFFSC underpaid 25 of the
     70 Air Force military personnel and overpaid 5 of the 70 Air Force military personnel by
     nominal amounts.

     The AFFSC should obtain the required documentation for the 34 Air Force military
     members reviewed that did not have complete documentation for their contingency
     operations entitlement payments and review the payments to ensure they were properly
     paid. The Air Force should make additional payments to the 25 Air Force military
     personnel for the amounts underpaid and collect overpayments from the 5 Air Force
     military personnel for the amounts overpaid for contingency operations entitlement
     payments.

Manager’s Internal Control Program and Quality Control
1B




Examination Program
AFFSC did not have a MIC program, which is required by the Federal Financial
Managers Integrity Act of 1982 as codified by Section 3512, Title 31, United States
Code. In addition, the AFFSC informal Quality Control Program, including the Quality
Control Examination Program, was inadequate. Because it did not have a MIC program
and an adequate Quality Control Examination Program, AFFSC did not realize that it had
a document retention problem, a failure to stop payments timely, and an accuracy of
payments problem.

Manager’s Internal Control Program
AFFSC did not have a MIC program to ensure adequate documentation existed,
payments were stopped timely, and accurate payments were made. The Office of
Management and Budget (OMB) Circular A-123, “Management’s Responsibility for
Internal Control,” December 21, 2004, implements the Federal Financial Managers
Integrity Act of 1982. OMB Circular A-123 states that management is responsible for
establishing and maintaining internal controls to achieve the objectives of effective and
efficient operations, and compliance with applicable laws and regulations. In addition,
management must establish a MIC program and provide a continuous assessment process
over whether the objectives of the activity are being met. Furthermore, OMB Circular
A-123 requires transactions to be supported by documentation that is readily available for
examination and review. In addition, DOD Instruction 5010.40, “Managers’ Internal
Control Program Procedures,” January 4, 2006, provides procedures for implementing
the MIC program including reporting, assigning responsibility, and organizing.

The AFFSC should establish a MIC program. A MIC program may have detected these
internal control weaknesses including the failure to maintain adequate documentation,
stop contingency operation entitlement payments promptly, and make accurate payments.




                                               8


      In addition, a MIC program would provide a continuous assessment and improve the
      AFFSC overall process for the Air Force military personnel contingency operation
      entitlement pay.

Quality Control Examination Program
AFFSC did not have an adequate Quality Control Examination Program to ensure
sufficient documentation existed, payments were stopped timely, and accurate payments
were made. For example, AFFSC did not have reports and adequate metrics to ensure
sufficient documentation existed to support timely processing and accurate Air Force
military personnel entitlement pay in support of contingency operations.

In addition, AFFSC issued four different versions of business rules that impacted
processing Air Force military personnel entitlement pay in support of contingency
operations. These business rules changed document retention requirements for the FSOs
submitting documents to AFFSC. Since EIM was the official system of record required
to maintain documents for 6 years and 3 months, FSOs were no longer required to
maintain paper copies of documents once they were scanned and submitted to AFFSC for
processing and payment.

The AFFSC processing of Air Force military personnel entitlement pay in support of
contingency operations was impacted by AFFSC’s inefficient process flows.
The AFFSC’s processes were modeled on the AFB-level FSO processes. However, once
AFFSC operations were underway, military pay-related processes, that had proven
effective for years at the AFB-level FSOs operating environment, proved ineffective in
the consolidated operating environment. Furthermore, in anticipation of quickly
transferring workload from the AFB-level FSOs to AFFSC, the Air Force Financial
Services Transformation team relocated experienced financial services personnel to
AFFSC from FSOs in advance of work force authorizations. As of May 2008,
330 personnel were assigned to AFFSC, while plans indicated that 550 personnel would
be needed to support full operations. As of May 2008, the AFFSC was servicing
40 of the 93 AFB-level FSOs. During our review, AFB-level FSO personnel expressed
concern that delays in processing entitlement pay degraded customer service. AFFSC
needs to establish an adequate Quality Control Examination Program to review results of
transactions for adequacy of documentation, timely processing of payments, and accuracy
of payments.

Improper Payments
12B




AFFSC did not always have complete documentation to support amounts paid for
contingency operation entitlements. In addition, AFFSC did not stop contingency
operation entitlement payments timely and did not always pay Air Force military
personnel accurately. DOD FMR, volume 4, chapter 14, states an improper payment is
any payment that should not have been made or was made in an incorrect amount under
statutory, contractual, administrative, or other legally applicable requirements.
An improper payment includes any payment that was made to an ineligible recipient or


                                              9


for an ineligible service, and payments for services not received. Incorrect amounts
include overpayments and underpayments. In addition, when a DOD organization is
unable to discern whether a payment is proper because of insufficient or lack of
documentation, that payment must also be considered an error. Furthermore, the lack of
supporting documentation limits the Air Force’s ability to detect overpayments and
underpayments, stop payments timely, and discover improper payments and fraud.

AFFSC is the designated future location for processing military pay and travel
transactions for the Air Force. The AFFSC needs to timely and accurately process
payments for contingency operation entitlements to avoid adverse impacts on Air Force
military personnel and their dependents when errors occur in processing their entitlement
pay. AFFSC needs to take additional steps to ensure that Air Force military personnel
entitlement pay is adequately processed.

Management Comments on the Finding and Our
Response
The Commander, Air Force Financial Services Center (AFFSC), responding on behalf of
the Assistant Secretary of the Air Force (Financial Management and Comptroller),
provided comments on the finding.

Commander, Air Force Financial Services Center, Comments on
the Finding
The Commander, AFFSC, agreed with the finding. The Commander stated that AFFSC
had an active Quality Assurance Program but did not have a formal MIC program beyond
providing the Annual Statement of Assurance to the Secretary of the Air Force.
The Commander also stated that only one set of business rules is currently being used by
AFFSC and FSOs, ensuring more consistency. In addition, the Air Force Accounting and
Finance Office is now responsible for issuing and managing the business rules.

Our Response
Our report stated that the AFFSC Quality Assurance Program was inadequate.
We reviewed the documentation provided and determined that the AFFSC Quality
Control Examination Program did not have reports and metrics to ensure adequate
documentation existed to support timely processing and accurate Air Force military
personnel entitlement pay in support of contingency operations.

We agree that having only one set of business rules for AFFSC and the FSOs will
improve consistency between parties. We also support the Air Force decision to make
the Air Force Accounting and Finance Office responsible for issuing and managing the
business rules.




                                         10


Recommendations, Management Comments, and Our
Response
We recommend that the Assistant Secretary of the Air Force (Financial
Management and Comptroller) require the Commander, Air Force Financial
Service Center to:

       1. Establish a Manager’s Internal Control program at the Air Force
Financial Services Center in accordance with Office of Management and Budget
Circular A-123 and DOD Instruction 5010.40.

Commander, Air Force Financial Services Center Comments
The Commander, Air Force Financial Services Center (AFFSC), responding on behalf of
the Assistant Secretary of the Air Force (Financial Management and Comptroller),
agreed. She stated that AFFSC has established a Manager’s Internal Control program.
The Commander also stated that a copy of the Manager’s Internal Control program was
provided to the audit team in April 2010, and an Air Force Inspection Agency inspection
did not find any discrepancies. The Commander considers this recommendation closed.

Our Response
The Air Force comments are partially responsive. The AFFSC did not have a Manager’s
Internal Control program at the time of our audit, and the Manager’s Internal Control
program developed in response to our finding was inadequate. The AFFSC Manager’s
Internal Control program established two assessable units (the Central Process Center and
the Command Section) with 28 assessable functions. However, none of the 28 assessable
unit functions were related to ensuring that adequate documentation exists, entitlement
payments are stopped timely, and entitlement payments are accurate. Furthermore, none
of the assessable unit functions identified control objectives, applicable criteria, risk,
testing, testing results, and review schedules. We ask that the Air Force reconsider its
position and provide additional comments.

       2. Develop an adequate Quality Control Examination Program at the Air
Force Financial Service Center to ensure documents are available to support
entitlement payments and prevent overpayments and underpayments for
contingency operations.

Commander, Air Force Financial Services Center Comments
The Commander, AFFSC, responding on behalf of the Assistant Secretary of the Air
Force (Financial Management and Comptroller), agreed. The Commander stated that a
Quality Control Examination Program does exist at AFFSC. In addition, the AFFSC will
use the FM Workflow (Enterprise Information Management replacement) in FY 2011.
The Commander also stated that AFFSC will continually review its procedures to ensure
adequate documentation exists, entitlement payments are stopped timely, and entitlement
payments are accurate. Furthermore, AFFSC quality assurance will review processed



                                         11


transactions monthly as part of the Manager’s Internal Control program and notify the
Central Processing Center of errors and areas where training is required. The
Commander estimates a completion date of January 1, 2011.

Our Response
The Air Force Comments are partially responsive. Our report stated that the AFFSC
Quality Control Examination Program was inadequate. The Quality Control Examination
Program did not have reports and metrics to ensure adequate documentation existed to
support timely processing and accurate Air Force military personnel entitlement pay in
support of contingency operations. Furthermore, the AFFSC Quality Control
Examination Program did not identify causes, make recommendations, or provide reports
on the results of its reviews. We ask that Air Force reconsider its position and provide
additional comments regarding the adequacy of the Quality Control Examination
Program.

       3. Obtain all the required documentation for the 34 Air Force military
personnel that were lacking documentation for their contingency operations
entitlement payments and review the payments to ensure the contingency operations
entitlement payments were properly paid.

Commander, Air Force Financial Services Center Comments
The Commander, AFFSC, responding on behalf of the Assistant Secretary of the Air
Force (Financial Management and Comptroller), agreed. The Commander stated that
AFFSC personnel have requested documentation from the Financial Services Offices;
when they receive the documentation, they will review and adjust the records if
necessary. The Commander estimates a completion date of October 1, 2010.

Our Response
The Air Force comments are responsive and meet the intent of our recommendations. No
further comments are required.

     4. Make additional payments to the 25 Air Force military personnel for the
amounts underpaid for contingency operations entitlement payments.

Commander, Air Force Financial Services Center Comments
The Commander, AFFSC, responding on behalf of the Assistant Secretary of the Air
Force (Financial Management and Comptroller), agreed. The Commander stated that
AFFSC personnel have retrieved supporting documentation from storage and will audit,
code, and process additional payments, as applicable. The Commander estimates a
completion date of October 1, 2010.

Our Response
The Air Force comments are responsive and meet the intent of our recommendations. No
further comments are required.

                                         12

     5. Collect overpayments from the five Air Force military personnel for the
amounts overpaid for contingency operations entitlement payments.

Commander, Air Force Financial Services Center Comments
The Commander, AFFSC, responding on behalf of the Assistant Secretary of the Air
Force (Financial Management and Comptroller), agreed. The Commander stated that
AFFSC personnel have retrieved supporting documentation from storage and will audit,
code, and establish debt if the amounts exceed thresholds established by DOD Financial
Management Regulation and the Air Force Manual. The Commander estimates a
completion date of October 1, 2010.

Our Response
The Air Force comments are responsive and meet the intent of our recommendations. No
further comments are required.




                                        13


Appendix A. Scope and Methodology
We conducted this performance audit from August 2008 through June 2010 in
accordance with generally accepted government auditing standards. These standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

      We obtained criteria and conducted interviews to determine the current processes at
      AFFSC and FSOs at the time of our audit. We examined the FY 2008 Air Force’s
      military personnel pay entitlements in support of contingency operations and the related
      internal controls for entitlements processed through AFFSC. We selected and reviewed a
      non-statistical sample of 70 Air Force military members that had transactions processed
      at AFFSC because the Air Force is transferring military pay and travel pay processing
      from 93 active duty base-level Financial Services Offices to AFFSC. We reviewed
      amounts paid for HDP, HFP/IDP, and FSA. We reviewed copies of Air Force Service
      members’ travel orders; travel vouchers; Air Force Forms 1881, “Hostile Fire Pay
      Certification;” and DD Forms 1561, “Statement to Substantiate Payment of Family
      Separation Allowance.” We verified the calculations of the 70 non-statistically sampled
      members’ HDP, HFP/IDP, and FSA by comparing the amounts we calculated against the
      Leave and Earnings Statements in DJMS.

Use of Computer-Processed Data
14B




We used computer-processed data obtained from DJMS. These computer-processed data
were used to obtain the amounts paid to Air Force military personnel for contingency
operation entitlements including HDP, HFP/IDP, and FSA. These computer-processed
data were also used to determine the collection actions taken by the Air Force to recover
contingency operation entitlements paid in error and the length of time the Air Force took
to collect these overpayments. We determined data reliability by comparing the data
provided to us from DJMS leave and earnings statements with source documents, such as
travel vouchers, and applicable DD Forms. We did not find errors that would preclude
the use of the computer-processed data to meet the audit objectives or that would change
the conclusions in the report.

Use of Technical Assistance
15B




The DOD Office of Inspector General Quantitative Methods and Analysis Division
assisted with this audit. The Quantitative Methods and Analysis Division selected a
non-statistical sample of 70 Air Force military personnel whose military pay included
entitlements in support of contingency operations from DJMS. AFFSC was responsible
for maintaining the supporting documentation for these 70 Air Force military personnel.




                                                14 

Prior Coverage
1B6




During the last 5 years, the Government Accountability Office, the DOD Inspector
General, the Army Audit Agency, and the Air Force Audit Agency have issued seven
reports discussing military pay disbursed in support of contingency operations.
Unrestricted Government Accountability Office reports can be accessed over the Internet
at http://www.gao.gov. Unrestricted DOD Inspector General reports can be accessed
               HTU        TUH




over the Internet at http://www.dodig.mil/audit/reports. Unrestricted Army reports can
                     TU                              HU   T




be accessed from .mil and .gao.gov domains over the Internet at
https://www.aaa.army.mil/. Unrestricted Air Force reports can be accessed from .mil
      UHT                       UTH




domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
         HU                                                             H




Common Access Cards.

GAO      19B




GAO Report No. GAO-06-494, “Hundreds of Battle-Injured GWOT Soldiers Have
Struggled to Resolve Military Debts,” April 27, 2006

GAO Report No. GAO-06-384R, “Controls Fail to Stop Overpayments,” April 27, 2006

GAO Report No. GAO-04-990T, “Army Reserve Soldiers Mobilized to Active Duty
Experienced Significant Pay Problems,” July 20, 2004

DOD IG   20B




DOD IG Report No. D-2009-079, “Controls Over the Department of the Navy Military
Payroll Disbursed in Support of the Global War on Terror,” May 7, 2009

Army     21B




U.S. Army Audit Agency Report No. A-2006-0067-FFM, “Military Pay for Operation
Enduring Freedom/Operation Iraqi Freedom Active Components,” April 5, 2006

U.S. Army Audit Agency Report No. A-2006-0079-FFM, “Material Weakness Closeout
on Line of Duty and Incapacitation Pay,” March 8, 2006

Air Force2B




Air Force Audit Agency Report No. F2009-0005-FB1000, “Air Force Financial Services
Transformation,” June 22, 2009




                                          15 

Appendix B. Military Pay Policy
DOD FMR, volume 7A, provides criteria for Hardship Duty Pay, Hostile Fire
Pay/Imminent Danger Pay, and Family Separation Allowance.

Hardship Duty Pay
DOD FMR, volume 7A, chapter 17, “Special Pay-Hardship Duty,” states “the Secretary
of Defense has established that HDP shall be paid to members for performing a
designated hardship mission, when assigned to a designated location” (Location
Assignment Entitlement). Specifically, Location Assignment Entitlement is paid for
Permanent Change of Station or Temporary Duty for more than 30 days in designated
locations. HDP ranges from a minimum of $50 to a maximum of $150 per month
according to location, and is paid on a daily pro rata basis after being in a designated
location for 30 days. The HDP rates are $100 per month for Iraq, Afghanistan, and
Kuwait, and $50 for Qatar. During the first month at an HDP qualifying location, HDP is
calculated by subtracting the day of arrival from 31. If the Air Force military member
arrives on the 31st of the month, the individual does not receive entitlement pay for the
first month. During intermediate months, the Air Force military member receives HDP
for 30 days for each complete month. During the final month, the Air Force military
member receives credit for the number of days at the HDP location. For example, if the
Air Force military member leaves the HDP qualifying location on the third day of the
month, the individual would receive HDP for 3 days for that month.

Hostile Fire Pay/Imminent Danger Pay
DOD FMR, volume 7A, chapter 10, “Special Pay-Duty Subject to Hostile Fire or
Imminent Danger,” states, “a member may be paid special pay for duty subject to hostile
fire or imminent danger for any month the member meets the qualifying criteria.” HFP is
payable when a member is: subject to hostile fire or explosion; on duty in an area in close
proximity to a hostile fire incident; or killed, injured, or wounded by hostile fire,
explosion, or actions. IDP is payable when a service member is on official duty in a
designated IDP area. HFP/IDP is an additional $225 per month. Proof of eligibility for
IDP can be an approved travel voucher for travel to a designated IDP area. Chapter 10
designates the following areas to be IDP areas: Afghanistan, Bahrain, Egypt, Iran, Iraq,
Kuwait, Qatar, and Saudi Arabia. The amount paid is on a per month basis without daily
pro rating. For example, if an Air Force Service member travels to an IDP area for a
3-day mission, the member is eligible for the $225.

Family Separation Allowance
DOD FMR, volume 7A, chapter 27, “Family Separation Allowance (FSA),” states “FSA
is payable only to members with dependents and is payable in addition to any other
allowance or per diem to which a member may be entitled.” FSA is payment for added
expenses resulting from forced separation from dependents. FSA is paid at a rate of
$250 per month, and it is calculated on a daily pro rata basis. FSA begins when the
military member leaves home base, and ends the day before returning to the home base.
For the first month, subtract the day of the month from 31. For example, if the Air Force

                                            16 

military member began travel qualifying for FSA on January 16, the member would
receive FSA for 15 days in January. During the months between the Air Force military
member’s first and last months of travel qualifying for FSA, the Air Force military
member receives FSA for 30 days of every complete month. During the final month of
travel qualifying for FSA, the Air Force military member receives FSA for the number
of days of the month the member has been on assignment away from the home base until
returning to the home base, excluding the day that the member returns to the home base.
For example, if the Air Force military member returns home on February 3, the military
member receives FSA for 2 days in February.




                                          17 

Air Force Financial Services Center Comments






                                          DEPARTMENT OF THE AIR FORCE
                                                      ' WASHINGTON, DC


                                                                                                 16 July 2010

     Offic:. Of The Assistlnt Secretary



            MEMORANDUM FOR DEPARTMENT OF DEFENSE (DOD) OFFICE OF
                           THE INSPECTOR GENERAL

            FROM : Air Force Financial Services Center (AFFSC)
                   Ellsworth AFB. SO

            SUBJECT: DOD IG Audit D2008-DOOOFP-0252 ,OOO Air Force Milnary Personnel
                     Ent itlement Pay in Support of Contingency Operations

            Th is is in reply 10 your memorandum rl'qucsling the Assistant Set.Tet:aty o f the Air Force
            (Financial Management and Co mptroller) provide Air Force commcnl son subject report.

            (linding: Int ~rn. 1 Controls Over Air Force Military Personne.l Entitlement Pay In
           Support of Conti ngency Operations

                                          Click to add JPEG file
            Management Comments: Co ncur with comments...

                    During the audit period , AFFSC had an active Quality Assurance Program in place;
           however, a fonna l Manager's Internal Control (MIC) Program had not been established
           beyond the provision of annual Statements of Assurance to SAFIFMP. During the audit
           period, the inspectors did no t interview the AFFSC Quality Assurance Manager who could
           have expanded upon the internal controls and discussed the Quality Assurance Program.

                   The audit noted the AFFSC's issuance of four different versions of business rules that
           impacted processing Air Fo rce military personnel entitlement pay in support of cont ingency
           operations. Since the audit, the business rules issuance and management has been placed
           under the purview of the Air Force Accounting and Finance Office. T herefore, o nly o ne
           versKl n is now lJS(..od by AFFSC and Financial Services Ofliccs (FSO). ensuring more
           consistC'ncy between all part ies.

           Recommen dlilion 1: Establish a Manager's Internal Co ntrol Program at the Air Fo rce
           Financi3l Services Center in accordance with Onicc of Management and Budget Circular A·
           123 and DOD Inst ructio n 5010.40.

           Management Comments: Concur.

           Corr~tive Adion : The AFFSC lo nnally implemcnlt:d a Manager's Internal Control
           Program as o f 17 Mar 10: a copy o f the program info rma.I Kln w as provided 10 •• • • • •
           _         DODIG on 5 Apr 10. Addit ionally. the Manager's Internal Conl rol Program was
           reviewed during the Mar 10 Air Fo rce Inspcctkm Agency ins pcctKln with zero discrepancies.
           Last ly. the FY I 0 Statement of Assurance was submiued to SAF/FMP o n 9 Jun 10. (Closed)
Recommendation 2: Dcvelop an adequatc Quality Control Examination Program at the Air
Force Financial Services Ccnter to ensure documents are a\'ailable to support entitlement
payments and prevent overpayments and underpayments for contingency operations.

Management Com men Is: Concur with comments. The Quality Control Examination
Program does exist at the AFFSC; however due to the processing centralization. the
organization and functions differ from the Quality ExaminatK>n Program at the FSO. As
noted in the report, ElM was developed to be a document tracking system for all FSO
documents submitted to AFFSC fo r processing. When ElM fai led, we were forcOO to
implement contingency measures using a Remote Access Drive (RAD) to manage document
now. Since RAD is a file transfer system vice document management system. we were faced
with additional cha llcnges in ensuring documentation retention.

Corredive Action: AFFSC will return to FM Workflow (E lM replacement) in FY II which
will provide an official system of record for document tracking. However. unt il FM
Workflow is back in place. we wHi continually review our procedures to ensure documents
processed arc accurate, timely and contain adequate documentation. Under RAD. we will
cont inue 10 review and evaluate quality examination procedures. C urrently, AFFSC Team
leads distributc documents &om the network drive for processing. If documentation is
missing, the technician logs the document set and returns it to the FSO for adion. If no errors
                              Click to add JPEG file
are found. the tr.msaction is proCt...~ed. :ludited and transmitted to DJMS in the end-of-day
process. Training is ongoing to ensure tha.t technicians and auditors undc..'fStand what
documentation is rcquir(.-d to support t..'Otitlement payments fo r contingency operations. Once
documents arc processed, they are archived on network drives and are available for additio nal
reviews. as required. Lastly. Quality Assurance performs a monthly review ofproccsscd
transactions as part of the MICP and notifies the Central Processing Center of crro~ and arC8S
where tra ining is required. (ECD: I Jan II)

Recommendation J: Obtain all the required documentation for the 34 Air Force military
personnel tha.t were lacking documentation for their contingency operations entitlement
payments and review the payments to ensure the contingency operations entitlement payments
werc properly pa id .

J\.bnagsmenl Comments: Concur.

Correc tive Action: Required documentation was req uested from affccted FSOs. Upo n
receipt o f documentation. records will be reviewed and adjusted. ifrcquircd . (ECD: lOci
10)

Recommendation 4: Make additional payments to the 2S Air Force military pt:.'fSOnnel for
the amounts underpaid fo r contingency operat ions entitlement payments.

Management Co mments: Concur.




                                                              19
Corrective Action: Identified documents have been retrieved from lo ng term file storage and
will be audited, coded and processed. as applicable. (ECD: 1 Oct 10)

Recommt!ndation S. Co llect overpayments from the 5 Air Force military personnel for the
amounts overpaid for contingency opcn1tions entitlement payments.

Mana gement Comments: Concur.

Corrective Actio n: Idcnlifil..-d documents have bel"O retrieved from long lenn file stor..lge and
will be audited, coded and debts established. as applicable ifthc amount exceeds the threshold
established by DODFMR, Vo lu me S. Chapler 11. paragraph 110208 and Air Force Manual
65·116. Volume I. paragraph 2.2. 11 .6. (ECD : I Oct 10)


TheAFFSCPOC: 1I1I1I1I1I1I1I1I1I1I1I1I1I1I1I1I1I1I1I1I1I1I1I



                              Click to add JPEG
                                        Commander,
                                                   ~PE:t~
                                                       file Services Center
                                                   AF Financial




                                                              20
